U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 5, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Gary L. Jackson v. Kenneth J. Braithwaite, Secretary of the Navy
S.Ct. No. 20-19

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 10,
2020, and placed on the docket on July 14, 2020. The government’s response is due on August
13, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 14, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0019
JACKSON, GARY L.
KENNETH J. BRAITHWAITE, SECRETARY OF THE
NAVY

KAVERI ARORA
PRYOR CASHMAN LLP
7 TIMES SQUARE
NEW YORK, NY 10036-6569
212-326-0453
KARORA@PRYORCASHMAN.COM
212-515-6954(Fax)
BOYD GARRIOTT
WILEY REIN LLP
1776 K STREET, NW
WASHINGTON, DC 20006
202-719-4487
BGARRIOTT@WILEY.LAW
ANTHONY F. SHELLEY
MILLER & CHEVALIER
900 SIXTEENTH ST., NW
WASHINGTON, DC 20006
202-626-5800
ASHELLY@MILCHEV.COM

